U.S. Department of the Interior
Office of Inspector General




         SURVEY REPORT


 CONTROLS OVER VIOLATION NOTICES,
    UNITED STATES PARK POLICE,
      NATIONAL PARK SERVICE

            REPORT NO. 96-I-547
               MARCH 1996
           United States Department of the Interior
                      OFFICE OF THE INSPECTOR GENERAL
                              Washington, D.C. 20240




MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY:             Final Survey Report for Your Information - “Controls
                             Over Violation Notices, United States Park Police,
                             National Park Service” (No. 96-I-547)

Attached for your information is a copy of the subject final survey report.

The United States Park Police did not adequately control or account for all violation
notice forms assigned to its officers. As a result, Park Police records did not contain
information on the disposition of 92 (34 percent) of the 270 notice forms we
reviewed, and the Park Police had no assurance that these notices were defaced, lost,
or voided for valid reasons. Park Police guidance requires that all requests for
cancellation of violation notice forms be made in writing and be approved by an
officer in the rank of captain or above and that these requests be maintained at the
stations. However, the Park Police was not enforcing this requirement and did not
have a system for reconciling lists of blank notice forms assigned to officers with lists
of notices issued. The Park Police agreed with our recommendation to establish
additional control procedures to ensure that violation notice forms are voided
properly and accounted for appropriately.

If you have any questions concerning this matter, please contact me at (202) 208-
5745.



Attachment
                                                                    E-IN-NPS-O1O-95
           United States Department of the Interior

                          OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240




To:

From:


Subject:
           Park Police, National Park Service (No. 96-I-547)

                               INTRODUCTION
We have completed a survey of the adequacy of controls over violation notice forms
at the United States Park Police, National Park Service. The objective of the review
was to determine whether the Park Police maintained proper controls and
accountability over these notice forms in the Washington, D.C. area.

BACKGROUND

The United States Park Police is part of the National Park Service’s National Capital
Region. The Park Police has about 660 authorized police officers, including about
500 for the Washington, D.C. area. The Park Police maintains several police
stations, which assign books of violation notice forms to police officers. When a
violation is noted, the officer writes either a District of Columbia notice or a Federal
notice (for violations outside the District) and leaves a carbon copy of the notice
with the violator or on the violator’s vehicle. The officer retains one copy. If the
violation involves an arrest, the officer personally delivers the original notice to the
District of Columbia Corporation Counselor the U.S. Attorney’s Office. If an arrest
is not involved, the original notice is turned in to a Park Police station (not
necessarily the same station that issued the book of notices) at the end of the
officer’s shift for transmittal to the Park Police Headquarters Records Section the
next day. The Records Section enters selected information from notices issued for
violations into a data base that is used for statistical reports and performance
appraisals. The notices are then sent to the Central Violations Bureau of the U.S.
Administrative Office of the Courts or to the District of Columbia Bureau of Traffic
Adjudication.
In 1994, the Park Police issued about 93,300 violation notices in the Washington,
D.C. area. Most notices were issued for motor vehicle violations and other
misdemeanors, but notices were also issued for felonies such as drug and weapon
offenses. The estimated revenue from motor vehicle violations and other
misdemeanors in 1994 was about $3 million for about 42,500 moving violations and
about $2 million for about 50,800 nonmoving violations, based on average fines of
$75 and $40, respectively. However, because payments are sent directly to the
Central Violations Bureau or the Bureau of Traffic Adjudication when a court
appearance is not required, the Park Police does not maintain information on the
amount of revenues actually received.

SCOPE OF SURVEY

Our survey was conducted at the Park Police Headquarters, the Central District
Station, and the Office of Audit and Evaluation, all in Washington, D.C. We also
visited the Park Police station in Glen Echo, Maryland, and the Court Liaison Office
in Alexandria, Virginia. To accomplish our objective, we reviewed current policy and
guidance on accountability and controls over violation notices and reviewed Park
Police records concerning violation notices issued during the period December 1994
to April 1995. In addition, we interviewed Park Police officers to determine the
extent of compliance with existing procedures and the disposition of the notice forms
that had been assigned to them.

Our survey was conducted in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of the survey, we evaluated the Park Police system
of internal controls to the extent that we considered necessary to accomplish the
survey objectives. We found weaknesses in the Park Police’s system of accounting
for violation notice forms assigned to Park Police officers. These weaknesses are
discussed in the Results of Survey section of this report. Our recommendations, if
implemented, should improve the internal controls in this area.

We also reviewed the Department of the Interior’s Annual Statement and Report
to the President and the Congress, required by the Federal Managers’ Financial
Integrity Act, for fiscal year 1994 and determined that there were no reported
weaknesses related to the objective and scope of our survey.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has
issued any reports during the past 5 years concerning controls over violation notices
at the United States Park Police.


                                          2
                           RESULTS OF SURVEY
The United States Park Police was not adequately controlling or accounting for all
violation notice forms assigned to its officers. Park Police Memorandum No .10,
Series 1989, and the Park Police Guideline Manual OD/PB/2 require that requests
for cancellation of violation notice forms be made in writing and be approved by an
officer in the rank of captain or above and that these requests be maintained at the
stations. However, the Park Police was not enforcing this requirement and did not
have a system for reconciling lists of blank notice forms assigned to officers with lists
of notices issued. As a result, Park Police records did not contain information on
the disposition of 92 (34 percent) of the 270 notice forms we reviewed, and the Park
Police had no assurance that these notices were defaced, lost, or voided for valid
reasons.

Cancellation of Notices

Park Police Memorandum No. 10, Series 1989, issued in August 1989, and Park
Police Guideline Manual OD/PB/2, issued in July 1988, require cancellation of notice
forms that are defaced, lost, or prepared erroneously. In order to cancel a notice
form, the officer is required to submit a brief memorandum to the Worksite
Commander through the immediate supervisor. The memorandum is to include the
following information: (1) the circumstances that necessitated the cancellation; (2)
the serial number of the notice form being canceled; (3) the serial number of the
replacement notice form (if applicable); and (4) the officer’s signature. If the
supervisor concurs with the officer’s request, the memorandum is signed to indicate
approval. All copies of the notice form and the memorandum are to be submitted
to the Worksite Commander for review and approval.

Upon approval by the Worksite Commander, copies of the notice form are to be
marked “VOID,” and the name and the badge number of the issuing officer are to
be recorded on the copies. Additionally, the serial number of any replacement
notice form is to be recorded on the voided notice form. A brief explanation of the
reason for cancellation and the Worksite Commander’s signature are to be entered
on a Violation Notice Transmittal (NPS Form 10-49) and sent to the Bureau of
Traffic Adjudication for final approval.

Based on our sample of 270 violation notice forms consisting of 30 notice forms
assigned to each of nine officers of the Central District station during December
1994, we found that notice forms were not being canceled as required. Specifically,
92 of the 270 notice forms assigned to eight of the nine officers were not listed on
the transmittal of notices sent from the station to the Records Section during the
period December 1994 to April 1995. Although the officers were not required to
keep copies of the notice forms after a case was closed, we asked them if they could
account for the 92 unlisted notice forms. The officers said that 42 of the notice

                                            3
forms were “probably voided” and “thrown away,” 30 were “probably shredded”
because of incorrect dates, 6 had been sent to the District of Columbia Corporation
Counsel, and l was found in a locker. The officers stated that they did not know
what happened to the remaining 13 notice forms. None of the officers had prepared
the required memoranda to their respective Worksite Commanders. We interviewed
six other officers at the Central District station to determine how they would dispose
of notice forms that had been damaged, defaced, or prepared in error. Four of the
officers stated that they would throw the notice forms away, one said he would
“probably” throw the notice forms away, and one said that he would “write a memo”
to his supervisor to have the notice forms canceled.

Control Procedures

The Park Police did not maintain a centralized records system to account for all
violation notice forms assigned to individual police officers. The Park Police had
issued guidelines and had established some controls to account for violation notice
forms, such as requiring officers to sign for blank notice forms received, requiring
officers to prepare transmittal sheets for notice forms sent to the Records Section,
and requiring the Records Section to prepare transmittal sheets listing the notice
forms sent to the Central Violations Bureau or the Bureau of Traffic Adjudication.
However, the Records Section did not receive copies or listings of notice forms that
had been defaced, lost, or voided or that were personally delivered to the U.S.
Attorney or the Corporation Council. Furthermore, although the Records Center
maintains a data base of selected information from notices issued for violations, the
data base does not include the serial numbers of the notices. Therefore, the Records
Section did not have the information needed to reconcile notice forms assigned to
police officers with the disposition of those notice forms. Accordingly, the Park
Police did not have a system for identifying missing notice forms that may have been
improperly canceled or voided.

While we believe that a comprehensive centralized system would help the Park
Police control and account for all notice forms, we are also aware that such a system
could be expensive and could result in the use of resources presently directed toward
law enforcement efforts. However, we believe that implementation of additional
controls, such as those used by other local police departments, would provide greater
assurance that notice forms are not canceled improperly. For example, police
departments in the Virginia areas of Fairfax County, Alexandria City, and Arlington
County require all notice forms to be turned in and accounted for and all voided
notice forms to be left in the officer’s notice book and turned in to the officer’s first-
line supervisor. The supervisor then signs or initials the voided notice forms and
sends them to the centralized records section to be entered into a data base of
notices assigned, issued, and voided. By querying the data base, missing notice forms
are identified. Fairfax County police officers are also required to record in the
notice form book whether the notice was issued or voided.

                                            4
Recommendation

We recommend that the Chief, United States Park Police, establish additional
reasonable control procedures to ensure that violation notice forms are voided
properly and accounted for appropriately.

United States Park Police Response and Office of Inspector General
Reply

The February 21, 1996, response (see Appendix 1) from the Chief, United States
Park Police, concurred with our recommendation and identified actions that have
been or will be undertaken to correct deficiencies in the procedures to control
violation notice forms.

Based on the response, we consider the recommendation resolved but not
implemented. Accordingly, the recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation,
and no further response to the Office of Inspector General is required (see Appendix
2).

The legislation, as amended, creating the Office of Inspector general requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.
                                                                                APPENDIX 1
                                                                                Page 1 of 2

                       United States Department of the Interior
                                      NATIONAL PARK SERVICE
                                 UNITED STATES PARK POLICE
                                            Headquarters
                                         1100 Ohio Drive, SW
IN REPLY REFER TO
                                       Washington, D.C. 20242




 Memorandum
 To :               Management   Officer,      National   Park   Service

 From:              Chief,   United   States    Park   Police              “/

 Subject:           Report   Number    E-IN-NPS-O1O-95

 The single recommendation contained in the draft report states: “We
 recommend that the Chief, United States Park Police, establish
 additional reasonable control procedures to ensure that violation
 notice forms are voided properly and accounted for appropriately. “
 We concur with this recommendation.

 We began a review to correct the deficiencies in our accountability
 of violation notices even before this evaluation was completed. To
 correct the deficiency we have undertaken or propose the following:

 (1) Developing additional cost effective procedures to tighten
 control of existing sign-out procedures for violation notices to
 ensure the integrity of the system. We have contacted our property
 office to ensure that once again the Form 10–50 and Form 1O-5O(A)‘s
 are issued through our property office and not the Brentwood
 Storehouse .  Completed.

 (2) Revising the weekly report submitted by the court liaisons in
 the Washington metropolitan area to the Commander. Audits and
 Evaluations Unit to include a list of the violation notices voided.
 Completed.

 (3) Redesign of the Form 10-50(.4), Violation Notice--Completed. W e
 are working with the various jurisdictions to make additional
 improvement-s to the other violation notices issued.

 (4) Perform spot checks to verify compliance with Force policy–-
 Completed.  The Commander, Audits and Evaluations Unit will ensure
 periodic spot checks are performed.   The first check is scheduled
 for the week of March 3, 1996.
                                                          APPENDIX 1
                                                          Page 2 of 2




                                                                   2




(5)   Increase  coordination   with     the   involved agencies        and
jurisdictions to develop a better       system of accountability       for
issued violation notices.    Ongoing.
(6) Revise Force policy to address deficiencies identified as a
result of the audit.  The Commander, Planning and Development will
ensure that all policies pertaining to issuance and disposition of
violation notices are reviewed.     Target date is June 3, 1996.
Proposals to correct the identified deficiencies will be provided
to me by September 6, 1996.
                                                           APPENDIX 2


        STATUS OF AUDIT REPORT RECOMMENDATION


Finding/Recommendation
        Reference           Status              Action Required

           1             Resolved; not   No further response to the Office
                         implemented.    of Inspector General is required.
                                         The recommendation will be
                                         referred to the Assistant Secretary
                                         for Policy, Management and
                                         Budget for tracking of
                                         implementation.




                                     8
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1550 Wilson Boulevard                                  1-800-424-5081 or
Suite 402                                              (703) 235-9399
Arlington, Virginia 22210

                                                       TDD for hearing impaired
                                                       (703) 235-9403 or
                                                       1-800-354-0996


                  Outside the Continental United States


                                 Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division- Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7279 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers:
 1-800-424-5081
 TDD 1-800-354-0996

FTS/Commercial Numbers:
 (703) 235-9399
 TDD (703) 235-9403

 HOTLINE
1550 Wilson Boulevard
Suite 402
